Department of Homeland Security
   Ofﬁce of Inspector General

             Annual Review of the United States 

             Coast Guard’s Mission Performance 

                         (FY 2010) 





OIG-11-111                                    September 2011
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




�                             SEPT�26�2011

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of the United States Coast Guard’s
mission performance, as required by the Homeland Security Act of 2002. It is based on
interviews with employees and officials of relevant agencies and institutions and a review
of applicable documents.

We trust this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits 

Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Results of Review ................................................................................................................3 


     Resource Hours for Non-Homeland Security and Homeland Security Missions ..........3 


     Coast Guard’s Mission Performance .............................................................................6 


     FY 2011 Budget Information.........................................................................................8 


     Management Comments and OIG Analysis ..................................................................9 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................10 

     Appendix B:           Management Comments to the Draft Report .......................................12 

     Appendix C:           Non-Homeland Security Missions .......................................................13 

     Appendix D:           Homeland Security Missions ...............................................................23 

     Appendix E:           FY 2010 Performance Measure Summary...........................................30 

     Appendix F:           Major Contributors to this Report ........................................................31 

     Appendix G:           Report Distribution ..............................................................................32 


Abbreviations
     DHS                   Department of Homeland Security 

     FY                    fiscal year           

     GAO                   Government Accountability Office 

     OIG                   Office of Inspector General 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                    This report presents our annual review of the United States Coast
                    Guard’s mission performance, as required by the Homeland
                    Security Act of 2002. To address the Act’s requirements, we
                    reviewed the Coast Guard’s performance measures and results for
                    each non-homeland security and homeland security mission, as
                    well as resource hours used to perform the various missions from
                    fiscal years 2001 through 2010. We did not verify the accuracy of
                    the Coast Guard-provided data.

                    Coast Guard data show that in fiscal year 2010, the Coast Guard
                    dedicated about the same number of resource hours to both non-
                    homeland security and homeland security missions. However, this
                    parity was not by design but rather due to several major events,
                    including the Deepwater Horizon oil spill in the Gulf of Mexico
                    and Haiti earthquake relief efforts. In addition, the total number of
                    resource hours available for all missions has been declining since
                    fiscal year 2005. This is attributable, in part, to aging cutters and
                    aircraft and increased support functions, such as training.

                    The Coast Guard performance measurement information indicates
                    that it met more non-homeland security mission performance
                    measures than homeland security mission performance measures.
                    The Coast Guard’s budget information for fiscal year 2011 and
                    projections for fiscal year 2012 show a slight increase in homeland
                    security mission spending and a slight decrease in non-homeland
                    security mission spending from fiscal year 2010.

                    This report contains no recommendations.




        Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                           Page 1
Background
                   Section 888 of the Homeland Security Act of 2002, Public Law
                   107-296, dated November 25, 2002, directs the Inspector General
                   to conduct an annual review that assesses the performance of all
                   the Coast Guard missions, with a particular emphasis on non-
                   homeland security missions. This section also defines the Coast
                   Guard’s 11 statutory missions as either non-homeland security
                   missions or homeland security missions, as follows:

                   Non-Homeland Security Missions

                         Marine Safety
                         Search and Rescue
                         Aids-to-Navigation
                         Living Marine Resources
                         Marine Environmental Protection
                         Ice Operations

                   Homeland Security Missions

                         Ports, Waterways, and Coastal Security
                         Drug Interdiction
                         Migrant Interdiction
                         Defense Readiness
                         Other Law Enforcement

                   In addition, Section 888 of the Homeland Security Act of 2002
                   prohibits the Secretary from substantially or significantly
                   reducing any of the Coast Guard’s missions or its capability to
                   perform those missions, subsequent to the transfer of the Coast
                   Guard to the Department of Homeland Security (DHS).

                   The Coast Guard uses resource hours—generally, the number of
                   flight hours (for aircraft) and underway hours (for boats and
                   cutters) used to carry out a specific mission—to determine the
                   amount of time expended on each of its non-homeland security
                   and homeland security missions. During our review, we obtained
                   data on the total number of resource hours reported by the Coast
                   Guard from a baseline of pre-September 11, 2001 data, through
                   fiscal year (FY) 2010. The Coast Guard–calculated baseline is an
                   annual average of resource hours based on eight FY quarters
                   preceding September 11, 2001. We did not verify the resource
                   hour data reported by the Coast Guard, nor did we validate


      Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                         Page 2
                     whether the Coast Guard accurately classified resource hours used
                     for each mission. We assessed total resource hours for the 11
                     individual missions in order to identify the changes in each.

Results of Review
     Although we did not verify the accuracy of the Coast Guard data, the data
     showed that FY 2010 was the first year that the Coast Guard dedicated about the
     same number of resource hours to non-homeland security missions as to
     homeland security missions. This increase in non-homeland security mission
     resource hours resulted from several major events, including the Deepwater
     Horizon oil spill in the Gulf of Mexico and Haiti earthquake relief efforts.
     During the Deepwater Horizon oil spill, the Coast Guard deployed more than
     7,000 personnel, 46 cutters and boats, and 22 aircraft. The Coast Guard also
     deployed more than 890 personnel, 43 cutters, and 27 aircraft to Haiti earthquake
     relief efforts. These events diverted resources from various other homeland and
     non-homeland missions such as Ports, Waterways, and Coastal Security; Drug
     Interdiction; Aids to Navigation; and Marine Safety. In addition, the total
     number of resource hours for all missions has been on a steady decline since FY
     2005, partially attributable to aging cutters and aircraft and additional support
     functions, such as training.

     In FY 2010, resource hours dedicated to non-homeland security and homeland
     security missions were nearly the same (352,517 and 357,320, respectively).
     The Coast Guard performance measurement information indicates that it met
     more non-homeland security mission performance measures (7 of 10) than
     homeland security measures (2 of 5). The Coast Guard’s budget information for
     FY 2011 and projections for FY 2012 show a slight increase in homeland
     security mission spending and a slight decrease in non-homeland security
     mission spending.

     Resource Hours for Non-Homeland Security and Homeland
     Security Missions
            Since 2005, the Coast Guard has dedicated the majority of resource hours to
            homeland security missions, except in FY 2010, as illustrated in the
            following chart.




        Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                           Page 3
    The Coast Guard data also show that the gap between resource hours for
    homeland security versus non-homeland security missions has narrowed
    from a 14% difference in FY 2005 (57% of resource hours used for
    homeland security missions versus 43% for non-homeland security
    missions) to virtually no gap in FY 2010. However, the increase in non-
    homeland security mission resource hours for FY 2010 is mainly
    attributable to the increased resources the Coast Guard dedicated to
    responding to the Deepwater Horizon oil spill and earthquake relief
    efforts in Haiti.

    As illustrated in table 1, the total Coast Guard–reported resource hours,
    composed of the number of flight hours (for aircraft) and underway hours
    (for boats and cutters) used on a specific mission, dropped for the third
    straight year to 709,837 in FY 2010, declining approximately 8%
    compared to 770,716 in FY 2007. Further, the largest percentage of all
    the Coast Guard resource hours was utilized for the Ports, Waterways,
    and Coastal Security mission, accounting for 22.18% of total resource
    hours for FY 2010.




Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                   Page 4
Table 1. FY 2010 Coast Guard Resource Hours
 

                                            FY 2007               FY 2008               FY 2009               FY 2010

                                                    % of                   % of                 % of                  % of
                                                   Total                  Total                Total                 Total
                Mission                Hours                   Hours                Hours                 Hours
                                                  mission                mission              mission               mission
                                                   hours                  hours                hours                 hours

Non-Homeland Security
Search and Rescue                        59,999     7.78%       61,321      8.26%    58,607       8.16%    64,273     9.05%
Marine Safety                            49,379     6.41%       45,794      6.17%    52,579       7.32%    58,828     8.29%
Aids to Navigation                      102,088    13.25%      106,638    14.36%    100,904    14.05%      95,268    13.42%
Ice Operations                           10,230     1.33%       11,938      1.61%     8,033       1.12%    11,639     1.64%
Marine Environmental Protection           2,628     0.34%        3,441      0.46%     2,949       0.41%    29,039     4.09%

Living Marine Resources                 104,293    13.53%      105,769    14.25%     94,178    13.12%      93,470    13.17%
              Subtotal                  328,617    42.64%      334,901    45.11%    317,250    44.18%     352,517    49.66%

Homeland Security
Illegal Drug Interdiction                75,175     9.75%       75,892    10.22%     80,564    11.22%      67,307     9.48%
Undocumented Migrant Interdiction        98,899    12.83%       74,918    10.09%     76,100    10.60%      76,848    10.83%
Other Law Enforcement                     9,213     1.20%        8,272      1.11%     6,686       0.93%     8,708     1.23%
Ports, Waterways, Coastal Security      219,662    28.50%      205,715    27.71%    181,264    25.25%     157,427    22.18%

Defense Readiness                        39,150     5.08%       42,688      5.76%    56,128       7.82%    47,030     6.62%
              Subtotal                  442,099    57.36%      407,485    54.89%    400,742    55.82%     357,320    50.34%

Total                                   770,716   100.00%      742,386   100.00%    717,992   100.00%     709,837   100.00%




                      According to Coast Guard officials, this decline in total resource hours is
                      attributable, in part, to unavailability of aging cutters and aircraft
                      resulting from unscheduled maintenance. There has also been increased
                      use of these assets for support functions such as training. Support hours
                      for the 11 statutory missions have increased 15% since FY 2007, thereby
                      decreasing the total available resource hours for conducting missions.

                      The percentages of total resource hours by statutory mission areas are
                      illustrated in the following chart.




                 Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                                      Page 5
      Non-homeland security missions are summarized in appendix C, and
      homeland security missions are summarized in appendix D.

Coast Guard’s Mission Performance
      The Coast Guard reported that it met 9 of 15 performance measures in
      FY 2010—7 of 10 non-homeland security performance measures and 2 of
      5 homeland security performance measures. In FY 2010, the Coast
      Guard utilized 15 performance measures, compared with 24 performance
      measures in FY 2009. Appendix E summarizes the Coast Guard’s FY
      2010 performance measures for its 11 missions.

      As shown in table 2, in FY 2010, the Coast Guard retired two
      performance measures (one non-homeland security and one homeland
      security measure) and no longer publicly reports on eight homeland
      security measures that we reported on in FY 2009. In addition, the
      “Defense Readiness Assessment of all U.S. Coast Guard High Endurance
      Cutters, Patrol Boats, and Port Security Units” performance measure is
      being used in FY 2010 to simplify and consolidate the three Defense
      Readiness performance measures previously reported in FY 2009.




  Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                     Page 6
                  Table 2. Retired or Not Publicly Reported FY 2009 Performance Measures 

                                                                                                  Retired/ Not
                        Mission                                Measure                             Publicly
                                                                                                   Reported
                   Non-Homeland Security Missions
                       Marine
                                       Percentage of oil removed or otherwise mitigated as
                    Environmental
                                       compared to the amount of oil released for reported              1
                      Protection
                                       spills of 100 gallons or more
                   Homeland Security Missions
                   Ports, Waterways,
                                        Number of transportation workers identification spot
                      and Coastal                                                                       1
                                        checks
                        Security
                   Total Non-Homeland Security and Homeland Security Performance
                                                                                                        2
                   Measures Retired
                   Homeland Security Missions
                                        Critical infrastructure required visit rate                     1
                                         Percentage of risk reduction of maritime security
                                         risk resulting from Coast Guard efforts to prevent a
                                                                                                        2
                                         weapon of mass destruction from entering the
                   Ports, Waterways,     United States via maritime means
                      and Coastal       Percentage of reduction of maritime security risk
                        Security        resulting from Coast Guard efforts to prevent a
                                                                                                        3
                                        terrorist entering the United States via maritime
                                        means
                                        Risk reduction due to consequence management                    4
                                        High-capacity passenger vessel required escort rate             5
                                        Defense readiness of patrol boats                               6
                                        Defense readiness of port security units                        7
                   Defense Readiness    Percentage of time that Coast Guard assets included
                                       in the combatant commander operational plans are
                                                                                                        8
                                        ready at a status of resources and training systems
                                        rating of 2 or better
                   Total Homeland Security Performance Measures Not Publicly Reported                   8
                   Total FY 2009 Performance Measures Retired or Not Publicly Reported                  10


                 The Coast Guard also compared baseline data with its mission execution
                 and support activities, in conjunction with DHS, as part of the recent
                 DHS Bottom-Up Review.1 As part of this process, the Coast Guard
                 identified six logical groupings of like activities within the 11 statutory
                 missions, as reflected in table 3. The groupings formed the basis of the
                 Coast Guard’s new structure within the overall construct of DHS

1
  Department of Homeland Security Bottom-Up Review Report (July 2010). The Bottom-Up Review
provides the results of the department-wide assessment of DHS, to align the Department’s programmatic
activities and organizational structure with the mission sets and goals identified in the Quadrennial
Homeland Security Review.


            Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                                Page 7
      programs as outlined in DHS’ Future Year Homeland Security Program.
      These six programs, implemented through execution of the Coast Guard’s
      11 statutory missions, are critical to the Coast Guard achieving specific
      Quadrennial Homeland Security Review goals and objectives, and
      advancing national priorities that together define the six DHS missions.

      Table 3. Coast Guard Statutory Missions Grouping with DHS Programs
              DHS Programs                           Statutory Missions
             Maritime Security                  Ports, Waterways, and Coastal
               Operations                       Security – Operational Activities
                                                Drug Interdiction
               Maritime Law                     Migrant Interdiction
               Enforcement                      Living Marine Resources
                                                Other Law Enforcement
                                                Ports, Waterways, and Coastal
                                                Security – Prevention Activities
           Maritime Prevention                  Marine Safety
                                                Marine Environmental Protection
                                                – Prevention Activities
                                                Search and Rescue
            Maritime Response                   Marine Environmental Protection
                                                – Response Activities
           Defense Operations                   Defense Readiness
          Marine Transportation                 Aids to Navigation
          System Management                     Ice Operations

      The performance measures and results for non-homeland security
      missions and homeland security missions are included in appendices C
      and D, respectively.

FY 2011 Budget Information
      During FY 2011, the Coast Guard expects the gap to remain narrow
      between non-homeland security missions and homeland security missions
      by expending 48.2 % of its budget on non-homeland security missions
      and 51.8% on homeland security missions. The Coast Guard reported
      that the FY 2011 continuing resolution funding level corresponds to the
      FY 2010 enacted level. The largest percentage, about 21%, of the Coast
      Guard resources will continue to be dedicated to its Ports, Waterways,
      and Coastal Security mission in FY 2011 and FY 2012.




  Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                     Page 8
Management Comments and OIG Analysis
      The Coast Guard agreed with the OIG’s analysis of its mission
      performance for FY 2010. We include the formal reply from the
      Assistant Commandant for Resources and Chief Financial Officer for the
      Coast Guard in appendix B.

      The Coast Guard provided technical comments on our draft report, and
      we addressed them, as appropriate, throughout the report.




  Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                     Page 9
Appendix A
Purpose, Scope, and Methodology

                      Section 888(f)(1) of the Homeland Security Act of 2002 directs the
                      Inspector General to conduct an annual assessment of the Coast
                      Guard’s performance of all its missions, with a particular emphasis
                      on non-homeland security missions. The objective of this review
                      was to determine the extent to which the Coast Guard is
                      maintaining its historical level of effort on non-homeland security
                      missions.

                      We reviewed the following Government Accountability Office
                      (GAO) reports and testimonies:

                               Coast Guard Observations on Acquisition Management
                               and Efforts to Reassess the Deepwater Program
                               (GAO-11-535T) April 13, 2011
                               Quadrennial Homeland Security Review: 2010 Reports
                               Addressed Many Required Elements, but Budget Planning
                               Not Yet Completed (GAO-11-153R) December 16, 2010
                               Coast Guard Observations on the Requested Fiscal Year
                               2011 Budget, Past Performance, and Current Challenges
                               (GAO-10-411T) February 25, 2010
                               Coast Guard Observations on the Fiscal Year 2010 Budget
                               and Related Performance and Management Challenges
                               (GAO-09-810T) July 7, 2009
                               Coast Guard Observations on the Fiscal Year 2009 Budget,
                               Recent Performance, and Related Challenges
                               (GAO-08-494T) March 6, 2008

                      We analyzed the total number of resource hours reported by the
                      Coast Guard prior to September 11, 2001, through FY 2010. We
                      did not attempt to verify the resource hour data, nor did we attempt
                      to validate whether the Coast Guard had accurately categorized
                      such data. We assessed total resource hours for the Coast Guard’s
                      11 individual missions to identify the changes in each.

                      We analyzed performance measures and targets to determine
                      whether the measures for each of the Coast Guard’s missions had
                      been accomplished. We obtained information on performance
                      from the Department of Homeland Security Annual Performance
                      Report, Fiscal Years 2010–2012 and the unpublished United States
                      Coast Guard Annual Performance Report for 2010. In addition,
                      we reviewed our Annual Review of the United States Coast
                      Guard’s Mission Performance (FY 2009), dated August 2010, for
                      performance measure data prior to FY 2010. We obtained target
                      projections from the FY 2011 and FY 2012 President’s Budget
                      Request Strategic Context Congressional Submission for the Coast

          Annual Review of the United States Coast Guard’s Mission Performance (FY 2010) 


                                             Page 10 

Appendix A
Purpose, Scope, and Methodology

                      Guard. We also obtained budget information from the
                      Department’s FY 2011 and FY 2012 Budget-in-Brief. We held
                      discussions with Coast Guard officials to obtain information on
                      why the Coast Guard did not meet its performance targets for
                      certain missions.

                      We conducted our review between March and July 2011 under the
                      authority of the Inspector General Act of 1978, as amended, and
                      according to the Quality Standards for Inspections, issued by the
                      Council of the Inspectors General on Integrity and Efficiency. We
                      relied on data provided by the Coast Guard and did not verify that
                      data against original documentation.

                      We would like to extend our appreciation for the cooperation and
                      courtesies extended by the Coast Guard to our staff during the
                      review.




          Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                             Page 11
Appendix B
Management Comments to the Draft Report




         --                                       -_      --_
                                                  - ....- --- ........
         --
          ~.                                              -                   =-~
                                                                              ~,
                                                                                       '''"'




         To:        _L.R_
                    ......... I_c......I for"""~1
                    DtlS 0llI REI'OIlT ON Atf!'o"UAL R.IlVlBW OFTHB UNITED STAres COAST •
                    CKJAP.D'S MISSION 1"ERf'llKMA.'lCll (fY :lOt 0)
                    (a)DllJOKl DrafI R_ _ ~ Il,:Illll
         •.    ~,.                Ii - , ..                            0:        oil!'         '~



         {Dtaja..ol
         _   ol. .
                                  (IOO·" DnlI
                         ..-_e-CJooot".-.,.'
                                     _       ..                ~      II'-'AlJD.U!IlX}-' - _
                                                                            (FYJDI~·



         _no..-
         z. .._._..,.
                _ e- ...U!CXI._
                        (UICOl4" ..__
                                   _ . 01_
                                       _ .010::;;;'
                                           r ;;;';;:
                                         Ooool                                         F

         J. noUIC:G _ _ ........ ol. . _                       . . ._ _. '... - . . _
         ;;';;;"_io... _
         4. .. ,... _     . . ., . _••    ..,,-ol_ II,.,             IoI.t. ~ . . _ . _ _ •
         (1llI) In.UJl.

                                                           •

         Copy.--,-.
         B     $    L (11U!CXI                    _



                   s..
                   _
                       Il<Ilt.o, AuoIi\ ~
                             , - . " . , . . . AMl)OO
                   K_ 00a0Iu."'_
                   T-.y Jom-       N_ .
                   Oweo<lolyo " * - r.--..
                                                  ~




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)
 


                                                        Page 12
 

Appendix C
Non-Homeland Security Missions

                     Non-Homeland Security Missions

                     The FY 2010 non-homeland security mission resource hours
                     totaled 352,517 and were up 11.12% from FY 2009. The
                     following graph illustrates the trend in non-homeland security
                     mission resource hours since 2005 compared with the baseline
                     period.




                     In FY 2010, the Coast Guard met 7 of 10 performance measures
                     for its six non-homeland security missions, compared with meeting
                     8 of 11 performance measures in FY 2009. The resource hours
                     and performance measures and results for each non-homeland
                     security mission are summarized below.

                     Search and Rescue

                     Minimizing the loss of life, personal injury, and property damage
                     or loss by rendering aid to persons in distress and property in the
                     maritime environment has always been a Coast Guard priority.

                     Resource Hours. Search and Rescue is a demand-driven mission.
                     Requirements for search and rescue services increase or decrease
                     relative to the number of people at sea and their need for Coast
                     Guard assistance. Resource hours in FY 2010 increased
                     approximately 9.7% over FY 2009. The following chart shows the
                     number of resource hours the Coast Guard used for the Search and
                     Rescue mission from the baseline period through FY 2010.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010) 


                                            Page 13 

Appendix C
Non-Homeland Security Missions




                     Performance Measures and Results. The one performance
                     measure related to Search and Rescue was not met in FY 2010.
                     This measure was used for the first time in FY 2009, but the Coast
                     Guard also provided data from 2005. However, in FY 2011 the
                     Coast Guard changed this performance target to saving 100% of
                     people in imminent danger in the maritime environment. Coast
                     Guard officials noted that this performance goal is not
                     operationally attainable.

                                                   Search and Rescue
                               Performance Measure – Percent of people in imminent danger
                                           saved in the maritime environment
                                        FY        FY         FY        FY        FY         FY
                                       2005      2006      2007       2008      2009       2010
                           Target      N/A        N/A       N/A      76.0%     76.0%      76.0%
                          Actual        N/A        N/A     N/A      76.8%      77.3%      74.4%
                                                                                            X
                           Result                                                          Not
                                                                     Met        Met
                                                                                           Met


                     Aids-to-Navigation

                     The Aids-to-Navigation mission is a means for the Coast Guard to
                     mark the waters of the United States and its territories to assist
                     boaters in navigation and alert them to obstructions and hazards.
                     This includes buoys, lighting, marking, and systems to monitor and
                     coordinate vessel traffic.

                     Resource Hours. The chart below shows that FY 2010 resource
                     hours decreased about 5.6% from FY 2009. This is about a 15%
                     decrease from the baseline level.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                              Page 14
Appendix C
Non-Homeland Security Missions




                     Performance Measures and Results. In FY 2010, there were two
                     performance measures related to Aids-to-Navigation. One
                     measure was met and one was not met. The wording in both
                     measures was simplified, but they are calculated the same as in
                     prior years. Specifically, the first measure (average number of
                     navigational accidents) was previously reported as the “5-year
                     average number of collisions, allisions, and groundings.”
                     Collisions refer to involuntary contact between vessels underway,
                     whereas allisions refer to involuntary contact between a vessel
                     underway and an immobile object such as a bridge.

                     The Coast Guard’s Marine Transportation System Management
                     program oversees this performance measure and has undertaken
                     initiatives to reduce the risk of collisions, allisions, and
                     groundings. The Coast Guard’s efforts include improvements in
                     bridge clearances to prevent disruptions to marine and surface
                     transportation; navigation safety risk assessments to identify
                     factors that influence collisions, allisions, and groundings; and
                     contingency planning for marine transportation during extreme
                     conditions. Even though the average number of navigational
                     accidents was not met, the Coast Guard’s performance was within
                     1% of its FY 2010 target.

                                                Aids-to-Navigation
                           Performance Measure – Average number of navigational accidents
                                       FY       FY         FY       FY        FY         FY
                                      2005     2006       2007     2008      2009       2010
                          Target     ≤1,831   ≤1,748     ≤1,664    ≤1756    ≤1,871     ≤1,858
                          Actual     1,877     1,816     1,823     1,857     1,878     1,878
                                        X        X          X        X         X          X
                          Result      Not       Not       Not       Not       Not       Not
                                      Met       Met       Met       Met       Met       Met
                     Note: The symbol ≤ indicates less than or equal to.
 




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                            Page 15
Appendix C
Non-Homeland Security Missions


                          The second measure, “Availability of maritime navigational aids,”
                          was previously reported as “Federal short-range aids to navigation
                          availability.” According to the Coast Guard, the availability of
                          maritime navigation aids increased slightly, to 98.5%. This
                          exceeded the FY 2010 and FY 2011 targets of 97.5%. This was
                          accomplished even though 12 buoy tenders, or 40% of the fleet,
                          assisted with the Deepwater Horizon oil spill.

                                                       Aids-to-Navigation
                                 Performance Measure – Availability of maritime navigation aids
                                           FY       FY         FY         FY         FY         FY
                                          2005     2006       2007       2008       2009       2010
                               Target     N/A      N/A        N/A       97.5%      97.5%      97.5%
                              Actual        N/A       N/A       N/A         98.3%   98.0%     98.5%

                               Result
                                                                            Met      Met       Met


                          Ice Operations

                          This mission encompasses icebreaking activities in the Great
                          Lakes, St. Lawrence Seaway, and Northeast.2 These activities
                          provide for the safe and efficient transportation of domestic and
                          international maritime vessels.

                          Resource Hours. In FY 2010, resource hours increased by
                          approximately 44.9% from FY 2009, which brings it only slightly
                          lower than the baseline level. Fluctuations in resource hours are
                          not unusual, since this mission is dependent on ice accumulation,
                          which varies on an annual basis.




2
  In addition to domestic ice operations, the Coast Guard operates the only U.S.-controlled icebreakers
capable of operations in the polar regions. The Coast Guard operates these cutters; however, budget
authority for their operation and maintenance is held by the National Science Foundation and transferred to
the Coast Guard. Resource hours for polar operations are included in the chart; however, only Coast
Guard–directed domestic ice operations performance targets are measured.


             Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                                  Page 16
Appendix C
Non-Homeland Security Missions




                     Performance Measures and Results. There was one
                     performance measure related to Ice Operations in FY 2010, and it
                     was not met. The Coast Guard met its performance target in all
                     waterways it is responsible for except for one waterway that
                     connects to the Great Lakes—the St. Claire River. The St. Claire
                     River was closed for 6 days due to ice conditions, as opposed to
                     the 2-day target for an average winter. This measure was reworded
                     for clarity, but it is calculated the same as in prior years.
                     Specifically, this measure was previously reported as “Number of
                     days critical waterways are closed due to ice.”

                                                      Ice Operations
                                 Performance Measure – Number of days critical waterways
                                             are closed to commerce due to ice
                                   FY 2005   FY 2006    FY 2007    FY 2008   FY 2009       FY 2010
                                    2 avg.    2 avg.     2 avg.     2 avg.    2 avg.        2 avg.
                        Target      and 8     and 8      and 8      and 8     and 8         and 8
                                    severe    severe     severe     severe    severe        severe
                       Actual         0         0          0          0         0             6
                                                                                             X
                        Result
                                     Met       Met        Met        Met       Met         Not Met


                     Living Marine Resources

                     This program’s mission is to provide effective and professional at-
                     sea enforcement of federal fisheries regulations and other
                     regulations to advance national goals for the conservation and
                     management of living marine resources and their environments.

                     Resource Hours. FY 2010 resource hours remained about the
                     same, decreasing only .75% from FY 2009, but were higher than
                     the baseline by 2.4%.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                             Page 17
Appendix C
Non-Homeland Security Missions




                     Performance Measures and Results. There was one
                     performance measure related to Living Marine Resources in
                     FY 2010, and it was met. The FY 2010 fishing regulation
                     compliance rate increased slightly from FY 2009, from 96.8% to
                     97.2%. Also, the 2011 performance target decreased to 96%
                     compliance from 97% in FY 2010. The wording of this measure
                     was simplified, but it is calculated the same as in prior years. It
                     was previously reported as “Percentage of the Coast Guard
                     boardings at sea in which no significant violations are detected
                     when domestic fisheries regulations apply.”
                                                  Living Marine Resources
                                   Performance Measure – Fishing regulations compliance rate
                                   FY 2005    FY 2006    FY 2007     FY 2008     FY 2009       FY 2010
                        Target       97%       97%         97%         97%         97%          97%
                        Actual      96.4%       96.6%       96.2%      95.3%       96.8%       97.2%
                                      X           X           X          X           X
                        Result
                                   Not Met     Not Met     Not Met    Not Met     Not Met       Met


                     Marine Safety

                     The Marine Safety Program ensures the safe operation and
                     navigation of United States and foreign-flagged vessels. The Coast
                     Guard is responsible for providing safe, efficient, and
                     environmentally sound waterways for commercial and recreational
                     users. Domestic vessel inspections and port state control (foreign
                     vessel) examinations are conducted in order to safeguard maritime
                     commerce and international trade.

                     Resource Hours. The Coast Guard did not report hours for this
                     mission prior to 2005. FY 2010 resource hours for Marine Safety
                     increased by approximately 11.9% from FY 2009.



         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                             Page 18
Appendix C
Non-Homeland Security Missions




                     Performance Measures and Results. There were three
                     performance measures related to Marine Safety in FY 2010, and all
                     measures were met.

                                                      Marine Safety
                            Performance Measure – Five-year average number of commercial
                                            mariner deaths and injuries
                                 FY 2005 FY 2006 FY 2007 FY 2008 FY 2009 FY 2010
                        Target     N/A      N/A         N/A       <501       <529      <520
                        Actual     N/A        N/A         N/A         496      495        454
                        Result
                                                                      Met      Met        Met


                     According to the Coast Guard, the 5-year average number of
                     commercial mariner deaths and injuries declined by about 8.3%
                     from the revised average of 495 in FY 2009. Also, the number of
                     deaths and injuries reported in FY 2010 was 311, or about 31.5%
                     fewer than average. This performance is better than the FY 2011
                     target of fewer than or equal to 475 deaths and injuries.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                            Page 19
Appendix C
Non-Homeland Security Missions


                                                    Marine Safety
                                   Performance Measure – Five-year average number of
                                        commercial passenger deaths and injuries
                                  FY 2005 FY 2006 FY 2007 FY 2008 FY 2009                 FY 2010
                       Target      N/A       N/A        N/A        <225        <251        <248
                       Actual      N/A        N/A        N/A         252        238         238
                                                                     X
                       Result
                                                                   Not Met      Met        Met


                     While the 5-year average number of commercial passenger deaths
                     and injuries did not change from the revised average of 238 in
                     FY 2009, the actual number of deaths and injuries reported in
                     FY 2010 was 188, or about 21% fewer than average.

                                                      Marine Safety
                                   Performance Measure – Five-year average number of
                                         recreational boating deaths and injuries
                                        FY        FY         FY         FY         FY        FY
                                       2005      2006       2007       2008       2009      2010
                         Target        N/A        N/A       N/A       <4,252     <4,248    <4,184
                         Actual        N/A        N/A       N/A        4,147      4,150     3,959

                         Result
                                                                      Met        Met        Met


                     The 5-year average number of recreational boating deaths and
                     injuries declined by nearly 4.6% from the revised average of 4,150
                     in FY 2009. While the 5-year average was 3,959, the actual
                     number of deaths and injuries reported in FY 2010 was 3,162, or
                     about 20% fewer than average.

                     Marine Environmental Protection

                     The Marine Environmental Protection Program falls under the
                     Coast Guard’s stewardship role and is concerned with averting the
                     introduction of invasive species, stopping unauthorized ocean
                     dumping, and preventing the discharge of oil or hazardous
                     substances into the navigable waters of the United States.

                     Resource Hours. In FY 2010, resource hours increased by about
                     900% from FY 2009. This increase is attributable to the
                     Deepwater Horizon oil spill in the Gulf Coast area. The Coast
                     Guard did not report resource hours for this mission prior to
                     FY 2005.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                              Page 20
Appendix C
Non-Homeland Security Missions




                     Performance Measures and Results. There were two
                     performance measures related to Marine Environmental Protection
                     in FY 2010, and both were met. The wording for both measures
                     was simplified, but they are calculated the same as in prior years.
                     The first measure (average number of chemical discharge incidents
                     in the maritime environment) was previously reported as the “5­
                     year average chemical discharge incidents per 100 million short
                     tons shipped.” According to the Coast Guard, the average number
                     of chemical discharge incidents in the maritime environment was
                     16.9 and met the target of being less than or equal to 22.8. This
                     performance is better than the FY 2011 target of fewer than or
                     equal to 22 chemical discharges.

                                           Marine Environmental Protection
                             Performance Measure – Average number of chemical discharge
                                        incidents in the maritime environment
                                      FY         FY         FY         FY      FY        FY
                                     2005       2006       2007       2008    2009      2010
                         Target      N/A        N/A        N/A        <26.6   <25.9     <22.8
                         Actual      N/A        N/A        N/A         20      18.2      16.9
                         Result                             X
                                                                     Met        Met       Met


                     The second measure (average number of oil spills in the maritime
                     environment) was previously reported as the “5-year average oil
                     spills > 100 gallons per 100 million short tons shipped.” The
                     FY 2010 average number of oil spills in the maritime environment
                     declined by about 7.4% from the revised average of 12.1 in
                     FY 2009. This performance is 3.5% better than the FY 2011 target
                     of fewer than or equal to 11.6 oil spills, which, because it was built



         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                            Page 21
Appendix C
Non-Homeland Security Missions

                     from a reliable baseline, is still considered an appropriate
                     expectation for FY 2011.

                                           Marine Environmental Protection
                                  Performance Measure – Average number of oil spills
                                            in the maritime environment
                                       FY        FY        FY        FY        FY          FY
                                      2005      2006      2007      2008      2009        2010
                         Target        N/A       N/A       N/A       <13.5     <13.5      <12.1
                         Actual        N/A       N/A       N/A       13.3       12.1      11.2
                         Result                             X
                                                                     Met        Met       Met




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                             Page 22
Appendix D
Homeland Security Missions

                     Homeland Security Missions

                     For FY 2005 through FY 2010, total resource hours for homeland
                     security missions were the highest in FY 2005. Resource hours
                     decreased 10.8% from FY 2009 to FY 2010. However, the
                     FY 2010 level remains at 92% above baseline levels, as depicted in
                     the following graph.




                     In FY 2010, the Coast Guard met 2 of 5 performance measures for
                     its 5 homeland security missions, as compared with meeting 6 of
                     13 homeland security performance measures for FY 2009.

                     The resource hours and performance measures and results for
                     homeland security mission are summarized below.

                     Ports, Waterways, and Coastal Security

                     The Ports, Waterways, and Coastal Security mission is to prevent
                     and protect against maritime security threats, reduce America’s
                     vulnerability to those threats, and minimize the adverse
                     consequences of maritime security incidents that occur.

                     Resource Hours. In FY 2010, resource hours for this mission
                     decreased by 13% from FY 2009, primarily because resources
                     were diverted to assist with the Deepwater Horizon oil spill and
                     earthquake relief efforts in Haiti. Resource hours for Ports,
                     Waterways, and Coastal Security rapidly increased in response to
                     the events of September 11, 2001. Of all the Coast Guard
                     missions, this one uses the largest percentage (22%) of resource
                     hours. Historically, resource hours for this mission have decreased
                     by nearly 40% from their high in 2004.


         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010) 


                                            Page 23 

Appendix D
Homeland Security Missions




                     Performance Measures and Results. There is only one
                     performance measure in FY 2010 relating to Ports, Waterways,
                     and Coastal Security, compared with seven performance measures
                     in FY 2009. This measure, “Percentage reduction in maritime
                     terrorism risk over which the Coast Guard has influence,” was met.
                     According to the Coast Guard, this measure will be retired in
                     FY 2011 and will be replaced with a risk-based performance model
                     that will more accurately represent its performance.

                                         Ports, Waterways, and Coastal Security
                        Performance Measure – Percentage reduction in maritime terrorism risk
                                      over which the Coast Guard has influence
                                FY 2005 FY 2006 FY 2007 FY 2008 FY 2009 FY 2010
                        Target    Est.       14%        15%       15%         21%       19%
                        Actual   3.40%       17%        15%       20%         31%       28%
                        Result     N/A
                                               Met        Met        Met          Met     Met


                     Drug Interdiction

                     The Coast Guard’s Drug Interdiction mission is key to combating
                     the flow of illegal drugs into the United States. The Coast Guard is
                     the lead federal agency for maritime drug interdiction and shares
                     responsibility for air interdiction with U.S. Customs and Border
                     Protection.

                     Resource Hours. As shown in the chart below, FY 2010 resource
                     hours for the Drug Interdiction mission decreased by 16.5% from
                     FY 2009, but are nearly 45% below baseline levels. The FY 2010
                     decrease is attributable to assets used for drug interdiction (High
                     and Medium Endurance Cutters, marine patrol craft, and
                     interdiction helicopters) being diverted to assist with both the
                     Deepwater Horizon oil spill and Haiti earthquake relief efforts.
                     Additionally, maintenance challenges prevented the High and


         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                             Page 24
Appendix D
Homeland Security Missions

                     Medium Endurance Cutter fleet from operating at designed
                     capacity, thereby limiting the resource hours dedicated to this
                     mission.




                     Performance Measures and Results. There was one
                     performance measure related to Drug Interdiction for FY 2010,
                     “Removal rate for cocaine from noncommercial vessels in a
                     maritime transit zone.” The FY 2010 target for this measure was
                     changed from 15.7% in FY 2009 to 18.5% in FY 2010, and it was
                     not met. The Coast Guard attributes this partly to diversion of
                     assets to Haiti earthquake relief efforts and to changing tactics by
                     drug traffickers. The Coast Guard also noted that the load size of
                     the drug seizures is significantly smaller, thereby impacting the
                     results of this performance measure.

                                                Drug Interdiction
                                Performance Measure – Removal rate for cocaine from
                                   noncommercial vessels in maritime transit zone
                                      FY       FY         FY        FY           FY          FY
                                     2005     2006       2007      2008         2009        2010
                         Target       N/A     N/A         N/A      N/A         15.7%       18.5%
                         Actual       N/A     N/A         N/A      N/A         15.0%       13.5%
                                                                                  X           X
                         Result
                                                                              Not Met     Not Met


                     According to the Coast Guard, to improve its data, in 2009 it
                     transitioned from the Interagency Assessment of Cocaine
                     Movement to the Consolidated Counterdrug Database as the best
                     source of cocaine movement estimates. The Consolidated
                     Counterdrug Database uses quarterly, event-based, all confidence
                     assessments, rather than annual production and consumption-based
                     estimates used by the Interagency Assessment of Cocaine
                     Movement. The Coast Guard has several initiatives underway to
                     increase interdiction capability and capacity through its
                     recapitalization efforts.



         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                            Page 25
Appendix D
Homeland Security Missions

                     Additionally, the Coast Guard reports that it will increase the size
                     of the Law Enforcement Detachment Program in FY 2011. This
                     budget action permitted the Coast Guard to manage its base and
                     improve performance. Also, the Coast Guard reports that it
                     provides critical force multipliers to counter the transnational drug
                     threat by growing domestic partnerships and expanding bilateral
                     agreements and international engagement programs. The Coast
                     Guard will continue its international engagement through
                     development and sustainment of these agreements, as well as the
                     deployment of mobile training teams to support partner nation
                     capabilities.

                     Undocumented Migrant Interdiction

                     The Undocumented Migrant Interdiction mission responsibilities
                     consist of enforcing immigration laws at sea. To fulfill its
                     responsibilities, the Coast Guard conducts patrols and coordinates
                     with other federal agencies and foreign countries to interdict
                     undocumented migrants at sea, denying them entry via maritime
                     routes to the United States, its territories, and its possessions.

                     Resource Hours. Resource hours increased by 1% from FY 2009
                     to FY 2010, and remained more than 150% above baseline levels.




                     Performance Measures and Results. There was one
                     performance measure related to Migrant Interdiction for FY 2010,
                     and it was not met. According to the Coast Guard, this metric
                     combines the efforts of the Coast Guard, other U.S. government
                     agencies, and foreign partner maritime forces. The Coast Guard
                     generally attributes not meeting this goal to the resource challenges
                     facing its foreign partners. Although as a group, this metric was




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                            Page 26
Appendix D
Homeland Security Missions

                     not met, the Coast Guard met its individual internal target of
                     interdicting 43% of undocumented migrants.

                                                    Migrant Interdiction
                        Performance Measure – Percentage of undocumented migrants who attempt
                             to enter the United States via maritime routes that are interdicted
                                   FY 2005 FY 2006 FY 2007 FY 2008 FY 2009 FY 2010
                        Target       N/A         N/A         N/A        65%        69.9%       73.9%
                        Actual       N/A         N/A        65.2%      62.7%       84.4%       64.5%
                                                                       X                     X
                         Result
                                                                     Not Met      Met      Not Met


                     Defense Readiness

                     The Defense Readiness mission provides essential capabilities to
                     support national security and military strategies. Resource hours
                     depict the execution of these defense missions, while the
                     performance measures and results measure the Coast Guard’s
                     readiness to perform the mission.

                     Resource Hours. As shown in the chart below, FY 2010 resource
                     hours for Defense Readiness were still above the baseline,
                     although resource hours decreased by 16.2% from FY 2009 to FY
                     2010. Again, assets were diverted to the Deepwater Horizon oil
                     spill and Haiti earthquake rescue operation, thereby limiting the
                     number of training exercises and drills that could be carried out to
                     be operationally ready.




                     Performance Measures and Results. The Coast Guard had one
                     performance measurement for Defense Readiness for FY 2010 to
                     capture the readiness of all relevant assets. This measure basically
                     combines the three performance measures in FY 2009. The
                     combined performance measure is the Defense Readiness of all
                     U.S. Coast Guard High Endurance Cutters, Patrol Boats, and Port


         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                            Page 27
Appendix D
Homeland Security Missions

                           Security Units, and it was not met. Previously there were three
                           measures—one for each asset listed above. This measure gauges
                           whether these Coast Guard assets meet the minimum standards
                           established in the Status of Resources and Training System, to
                           assess deployment readiness for Department of Defense
                           operations.

                                                      Defense Readiness
                              Performance Measure – Defense readiness assessment of all U.S. Coast
                                Guard high-endurance cutters, patrol boats, and port security units
                                      FY 2005 FY 2006 FY 2007 FY 2008 FY 2009 FY 2010
                             Target     N/A       N/A         N/A         N/A         N/A       35.9%
                             Actual       N/A       N/A        N/A        N/A        N/A       24.1%
                                                                                                 X
                             Result
                                                                                               Not Met


                           According to the Coast Guard, it did not meet its target primarily
                           because of an overall decline in the readiness of its High
                           Endurance Cutter fleet. This issue is being addressed by the Coast
                           Guard’s acquisition of the National Security Cutter. A second
                           National Security Cutter was commissioned in May and a third
                           was christened in July 2010.

                           Other Law Enforcement

                           Other Law Enforcement is responsible for preventing illegal
                           foreign fishing vessel encroachment in the United States Exclusive
                           Economic Zone.3 The Coast Guard focuses on three high-threat
                           areas for illegal foreign incursions: the United States–Mexican
                           border in the Gulf of Mexico, the United States–Russian Maritime
                           Boundary Line in the Bering Sea, and the eight noncontiguous
                           Exclusive Economic Zones in the Western/Central Pacific.

                           Resource Hours. As shown in the chart below, the resource hours
                           for the Other Law Enforcement mission were above baseline in
                           FY 2007, FY 2008, and FY 2010. Resource hours increased
                           30.2% in FY 2010 from FY 2009. This increase is magnified since
                           it follows FY 2009, which dropped 19.2% from FY 2008.
                           FY 2010 resource hours represent 1.23% of total mission hours.

3
 An Exclusive Economic Zone generally extends to a distance of 200 nautical miles (370 km) out from its
coast. Within the Exclusive Economic Zone, the coastal state has sovereign rights for the purpose of
exploring, exploiting, conserving, and managing natural resources, both living and nonliving, of the seabed,
subsoil, and the subjacent waters; and with regard to other activities, for the economic exploitation and
exploration of the zone. The United States has the largest Exclusive Economic Zone in the world,
encompassing more than 2.25 million square miles and 90,000 miles of coastline.


              Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                                  Page 28
Appendix D
Homeland Security Missions

                     This level is consistent with FY 2007 and FY 2008 percentages of
                     1.20% and 1.11%, respectively.




                     Performance Measures and Results. There was one
                     performance measure related to Other Law Enforcement for
                     FY 2010, and it was met. The wording for this measure was
                     simplified, but it is calculated the same as in prior years. The
                     FY 2010 measure was changed to Number of Detected Incursions
                     of Foreign Fishing Vessels Violating U.S. Waters. The previous
                     performance measure was reported as “Number of incursions into
                     U.S. Exclusive Economic Zone.”

                                                Other Law Enforcement
                                 Performance Measure – Number of detected incursions
                                     of foreign fishing vessels violating U.S. waters
                                 FY 2005 FY 2006 FY 2007 FY 2008 FY 2009 FY 2010
                        Target     <200       <199         <199        <195        <195 <180
                        Actual      171        164         119          81         112   82
                        Result
                                   Met        Met        Met       Met        Met         Met


                     Based on historical data, anticipated increased success in detecting
                     United States Exclusive Economic Zone incursions along the
                     United States–Mexico maritime border in the Gulf of Mexico, and
                     an anticipated increase in illegal encroachments into the Exclusive
                     Economic Zone, the program plans to maintain its FY 2010 target
                     of fewer than 180 incursions in FY 2011 as an aggressive but
                     achievable target.




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)

                                            Page 29
Appendix E
FY 2010 Performance Measure Summary

          Summary of Coast Guard Performance Measures in FY 2010
                                                                                                 Not
               Mission                         Measure                             Measure Met   Met
         Non-Homeland Security Missions
                                Percentage of People in Imminent Danger
          Search and Rescue                                                           1           x
                                Saved in the Maritime Environment
                                Availability of Maritime Navigation Aids              2      x
          Aids-to-Navigation    Average Number of Navigational
                                                                                      3           x
                                Accidents
                                Number of Days Critical Waterways Are
            Ice Operations                                                            4           x
                                Closed to Commerce Due to Ice
            Living Marine
                                Fishing Regulation Compliance Rate                    5      x
              Resources
                                5-Yr Average Number of Commercial
                                                                                      6      x
                                Mariner Deaths and Injuries
                                5-Yr Average Number of Commercial
            Marine Safety                                                             7      x
                                Passenger Deaths and Injuries
                                5-Yr Average Number of Recreational
                                                                                      8      x
                                Boating Deaths and Injuries
                                Average Number of Chemical Discharge
                Marine                                                                9      x
                                Incidents in the Maritime Environment
            Environmental
                                Average Number of Oil Spills in the
              Protection                                                             10      x
                                Maritime Environment
         Total Non-Homeland Security Performance Measures                            10      7    3

         Homeland Security Missions
                                      Percentage Reduction in Maritime
           Ports, Waterways,
                                      Terrorism Risk Over Which Coast Guard           1      x
          and Coastal Security
                                      Has Influence
                                      Removal Rate for Cocaine from Non­
           Drug Interdiction          commercial Vessels in Maritime Transit          2           x
                                      Zone
                                      Percentage of Undocumented Migrants
                                      Who Attempt to Enter the United States
          Migrant Interdiction                                                        3           x
                                      Via Maritime Routes That Are
                                      Interdicted
                                      Defense Readiness Assessment of all
                                      U.S. Coast Guard High-Endurance
          Defense Readiness                                                           4           x
                                      Cutters, Patrol Boats, and Port Security
                                      Units
                                      Number of Detected Incursions of
              Other Law
                                      Foreign Fishing Vessels Violating U.S.          5      x
             Enforcement
                                      Waters
         Total Homeland Security Performance Measures                                 5      2    3

         Total Coast Guard Performance Measures                                      15      9    6




         Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)
 


                                            Page 30

Appendix F
Major Contributors to this Report

                      Brooke Bebow, Director
                      Sam Bellino, Audit Manager
                      Hortencia Francis, Program Analyst
                      Kevin Donahue, Auditor
                      Tammy Johnson, Management Analyst
                      Gwendolyn Priestman, Referencer




          Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)
 


                                             Page 31
 

Appendix G
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      United States Coast Guard Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




          Annual Review of the United States Coast Guard’s Mission Performance (FY 2010)
 


                                             Page 32
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
